             Office of Inspector General




October 14, 2004

ROGER NIENABER
MANAGER, CINCINNATI DISTRICT

SUBJECT: Audit Report – Self-Service Vending Program – Cincinnati District
         (Report Number DR-AR-05-004)

This is one of a series of audit reports on the Self-Service Vending Program in
the Eastern Area. The report presents the results of our self-initiated audit on
the Self-Service Vending Program in the Cincinnati District (Project Number
04YG014DR002). The information in this district report will be included in a
report to the Eastern Area Vice President.

                                                Background
The Self-Service Vending Program, implemented in October 1964, is one of the Postal
Service’s major programs. It provides Postal Service customers with a convenient
alternative for purchasing stamps and other basic Postal Service products after
business hours and without the need to stand in line during business hours.

Nationwide, the Postal Service maintains approximately 30,000 vending machines
(27,000 self-service postal centers and 3,000 other types of vending equipment) that
generated over $1.9 billion in revenue during fiscal years (FY) 2001 through 2003.
During FY 2003, the Eastern Area had 4,242 pieces of vending equipment that
generated over $103 million in revenue, of which the Cincinnati District maintained
9 percent (370) of the total area machines that generated over 12 percent
($11.9 million) of the total area vending revenue. During the first quarter of FY 2004,
the Eastern Area had 4,443 pieces of vending equipment that generated over
$27.9 million in revenue, of which the Cincinnati District maintained 9 percent (411) of
the total area machines that generated over 12 percent ($3.3 million) of the total area
vending revenue.1



1
 During the first quarter of FY 2004, the Eastern Area had 201 additional vending machines and the Cincinnati
District had 41 additional vending machines during the first quarter of FY 2004 due to an area-wide reorganization.



    1735 N Lynn St.
    Arlington, VA 22209-2020
    (703) 248-2100
    Fax: (703) 248-2256
Self-Service Vending Program –                                                         DR-AR-05-004
 Cincinnati District



                           Objective, Scope, and Methodology

The objective of our audit was to determine whether the Self-Service Vending Program
is effectively and efficiently meeting program goals of increasing revenue and reducing
operating costs. Specifically, in this review, we determined whether Self-Service
Vending Program managers have effectively redeployed vending equipment that does
not meet minimum revenue requirements in order to maximize revenue, and
discontinued the use of obsolete vending equipment. We also physically observed a
judgmental sample of 20 vending machines to determine whether the machines were
operational and easily accessible. For the 370 vending machines operating in the
Cincinnati District during FY 2003, 222 were classified as obsolete based on Postal
Service guidance, while the remaining 348 were classified as current equipment. For
the first quarter of FY 2004, 411 vending machines were operating in the Cincinnati
District, of which 253 were classified as obsolete, and the remaining 386 were classified
as current equipment.

During our audit, we visited Postal Service facilities and interviewed managers and
employees; reviewed documentation and applicable policies and procedures; and
analyzed data in the Postal Service’s Vending Equipment Sales and Service System
(VESS) for FYs 2002 through 2003 and the first quarter of FY 2004 to identify obsolete
equipment and equipment that did not meet the minimum revenue requirements.4
Although we relied on data obtained from VESS, we did not test the validity of the data
and controls over the system.

Audit work associated with the Cincinnati District was conducted from March through
October 2004, in accordance with generally accepted government auditing standards
and included such tests of internal controls as were considered necessary under the
circumstances. We discussed our observations and conclusions with appropriate
management officials and included their comments, where appropriate.

                                       Prior Audit Coverage
The Office of Inspector General (OIG) has issued three reports related to the objective
of this audit.

Self-Service Vending Program - Tennessee District (Report Number DR-AR-04-003,
June 30, 2004), Self-Service Vending Program - Alabama District (Report Number
DR-AR-04-004, June 30, 2004), and Self-Service Vending Program - Atlanta District
(Report Number DR-AR-04-002, July 1, 2004). The reports stated that district officials
could improve their process for redeploying vending equipment that does not meet
minimum revenue requirements. In FY 2003, 54 percent (857 of 1,573) of the vending

2
  This number includes two currency changer machines, which do not generate revenue.
3
  This number includes two currency changer machines, which do not generate revenue.
4
  Obsolete equipment was not included in the minimum revenue analysis.



                                                       2
Self-Service Vending Program –                                                                         DR-AR-05-004
 Cincinnati District


machines in the Tennessee, Alabama, and Atlanta Districts did not meet the minimum
revenue requirements and the districts may have missed revenue opportunities of
approximately $2.7 to $8.5 million by not redeploying this equipment. Additionally,
these districts continued to use 250 obsolete machines and possibly incurred
maintenance and repair expenses. Management agreed with all recommendations and
actions taken and planned were responsive to the recommendations.

                                               Audit Results
Opportunities exist for Cincinnati District officials to improve the effectiveness and
efficiency of the Self-Service Vending Program and to meet or exceed program goals of
increasing revenue and reducing operating costs. Specifically, Cincinnati District
officials could increase revenue opportunities by redeploying equipment that does not
meet minimum revenue requirements. Further, Cincinnati District officials could
possibly reduce maintenance and repair costs by discontinuing the use of obsolete
equipment. However, our physical observation of vending machines in the Cincinnati
District indicated that overall the machines were operational and easily accessible, with
one exception.

Redeployment of Vending Equipment

Cincinnati District officials could improve their process for redeploying vending
equipment that does not meet Postal Service minimum revenue requirements.
Specifically, during FY 2003, our review of the vending equipment revenue reports
indicated that 48 percent (165 of 348) of the vending machines did not meet the
minimum revenue requirements. Vending equipment sales were approximately
$1.8 million, which was significantly less than the minimum revenue requirement of
$3.3 million. As a result, the Cincinnati District may have missed revenue opportunities
of approximately $440,000 to $1.5 million by not redeploying this equipment.5

Additionally, during the first quarter of FY 2004, our review of vending equipment
revenue reports indicated that 48 percent (187 of 386) of the vending machines did not
meet the minimum revenue requirements. Vending equipment sales were
approximately $395,000, which was significantly less than the average minimum
revenue requirement of $734,000. As a result, the Cincinnati District may have missed
revenue opportunities of approximately $339,000 by not redeploying this equipment.



5
  For each vending machine, we calculated the shortfall in revenue compared to the established minimum for a
particular machine type and referred to this shortfall as “missed revenue opportunities.” The $440,000 represents the
minimum total possible missed revenue opportunities after giving consideration to Postal Service guidance, which
requires district officials to review revenue reports and take appropriate actions if a vending machine’s revenue does
not reach plan in three to six accounting periods. The $1.5 million represents the maximum total possible missed
revenue opportunities for the FY 2003 and is calculated by subtracting actual revenues generated from the total of all
machine minimum revenue requirements.




                                                        3
Self-Service Vending Program –                                                                   DR-AR-05-004
 Cincinnati District


One of the Self-Service Vending Program’s goals is to increase revenue through the
redeployment of equipment. The Postal Service should redeploy equipment that does
not meet minimum revenue requirements to other locations. Postal Service policy,
Handbook PO-102, Self-Service Vending Operational and Marketing Program,
Chapter 2, Section 256, May 1999 (updated with Postal Bulletin revisions through
December 25, 2003), establishes the minimum revenue requirements for vending
machines. The district retail office is responsible for evaluating equipment revenue to
find the right location for the right machine. If self-service vending equipment is located
in an area where it is unable to generate enough revenue to meet the minimum
requirement, the equipment must be considered for redeployment. If revenue does not
meet the minimum requirement in three to six accounting periods, the district retail office
should place the equipment on a list for redeployment; notify any office where changes
will be made; prepare a typewritten or computer-generated notice, approved through the
district retail office, to be posted in the lobby informing customers 30 days before
removing the equipment; and complete Postal Service (PS) Form 4805, Maintenance
Work Order, and move the equipment to a better location.

Although district officials initiated maintenance work order requests for 11 under-
performing machines, no action was taken to redeploy any machines that did not meet
minimum revenue requirements during FY 2003 and the first quarter of FY 2004.
District officials indicated that redeployment of the machines was not considered a high
priority due to the nonavailability of required vending equipment for the new locations.
Work efforts were directed to higher priorities such as automated postal centers and
other retail programs. By not taking action to redeploy underperforming equipment, the
district could miss revenue opportunities during the remainder of FY 2004.

District officials also expressed concern regarding the Postal Service’s methodology to
establish minimum revenue requirements, and that current requirements are too high in
relation to the machines’ geographic locations. We plan to forward the district’s concern
to Postal Service Headquarters.

We discussed the results with Cincinnati District officials and they agreed that they
could improve their redeployment process for equipment that does not meet the Postal
Service’s minimum revenue requirements. District officials indicated that plans are
being made to reassess vending machine locations based on receipt of 42 automated
postal centers.6

Recommendation

We recommend the Manager, Cincinnati District, direct the Retail Manager to:

1. Review revenue reports to identify underperforming equipment; notify postmasters of
   vending equipment that generates low revenue; and giving consideration to all
6
 Automated postal centers are a newly developed kiosk that provides convenient 24-hour automated access to
purchase stamps as well as many premium delivery services such as Express and Priority Mail.




                                                     4
Self-Service Vending Program –                                                                DR-AR-05-004
 Cincinnati District


    feasible alternatives, complete all necessary actions to redeploy underperforming
    equipment as often as possible.

Management’s Comments

Cincinnati District management agreed their process for redeploying vending equipment
that does not meet minimum revenue requirements can be improved. The District
Retail Manager will review revenue reports to identify underperforming vending
equipment and give notice to postmasters of underperforming vending equipment.
Notices will be sent no later than November 1, 2004. The District Retail Manager will
consider all feasible alternatives and complete all necessary actions to redeploy
underperforming equipment. Management’s comments, in their entirety, are included
in the appendix of this report.

Evaluation of Management’s Comments

Management comments are responsive to our recommendation. Management actions
taken or planned should correct the issues identified in the finding.

Use of Obsolete Equipment

In FY 2003, Cincinnati District officials continued to use 20 obsolete machines and
possibly incurred maintenance and repair expenses, although Postal Service policy
discontinued the maintenance and repair support for the machines in June 2000.7 Our
review of vending equipment revenue reports indicated that 90 percent (18 of 20) of the
machines during FY 2003 and all of the machines during the first quarter of FY 2004 did
not meet minimum revenue requirements.

District officials stated they continued to use and maintain the obsolete equipment
primarily because of the potential adverse impact on customer service since
replacement equipment was not available. As a result, during FY 2003 and the
first quarter of FY 2004, the district possibly incurred maintenance and repair expenses
that may have exceeded the revenue generated by continuing to operate and maintain
obsolete machines. We were unable to determine the amount of repair and
maintenance expenses associated with the obsolete machines because the Postal
Service does not capture the data for each machine.8

Periodically, the Postal Service lists vending equipment as obsolete, meaning that the
equipment has exceeded its expected life cycle and will no longer receive support from
maintenance organizations. All inactive retail vending equipment items must be
reported to the district material management specialist. When retail vending equipment

7
  This policy supplements Maintenance Management Order, MMO-018-96, June 21, 1996, Discontinuance of Support
for Obsolete Vending Machines. This MMO includes discontinuance of support for recently obsolete models of
vending machines announced in the Material Logistics Bulletin (MLB-PP-00-004), issued on May 18, 2000.
8
  We plan to address this issue in a capping report to Postal Service Headquarters officials.




                                                    5
Self-Service Vending Program –                                                  DR-AR-05-004
 Cincinnati District


items are obsolete or listed as excess, the Postal Service may consider them for
disposal action. Parts from obsolete machines may be salvaged and stored for
maintenance or repair of other compatible equipment. In June 2000, Postal Service
policy listed the obsolete vending equipment that should no longer receive support from
maintenance organizations.

By continuing to use and maintain obsolete machines, the district will possibly incur
repair and maintenance costs that may exceed the revenue generated. We recognize
management’s desire to provide customer service; however, because the Postal
Service does not capture repair and maintenance, management has no means of
assessing whether the benefits of operating the obsolete equipment outweigh the cost
to operate it. District officials indicated that plans would be made to replace the
obsolete machines when the new automated postal centers are deployed to the district
locations.

Recommendation

We recommend the Manager, Cincinnati District, direct the Retail Manager to:

2. Consider all feasible alternatives, and complete all necessary actions to eliminate
   repair and maintenance cost for the obsolete equipment.

Management’s Comments

Management agreed that the Cincinnati District continued to use obsolete vending
machines. Cincinnati District officials believe no maintenance and repair costs were
incurred during FYs 2003 and 2004 because usable parts were removed from 58 pieces
of obsolete equipment removed from service over the last three years. The Retail
Manager will initiate work orders to remove the 20 remaining pieces of obsolete vending
equipment from service no later than December 1, 2004.

Evaluation of Management’s Comments

Management comments are responsive to our recommendation. Management actions
taken or planned should correct the issues identified in the finding.

Physical Observation of Vending Machines

Our physical observation of vending machines in the Cincinnati District indicated that
overall the machines were operational and easily accessible, with one exception.
Specifically, 95 percent (19 of 20) of the machines judgmentally selected for review
were operating properly and easily accessible. The remaining one machine had a
notice posted as being out of service in May 2004; however, the inoperable machine
was not listed in VESS as of the first week in June 2004. District officials indicated that
the information for the one machine was not listed in VESS due to an employee




                                            6
Self-Service Vending Program –                                                 DR-AR-05-004
 Cincinnati District


inaccurately completing PS Form 8130, Vending Equipment Sales and Service Daily
Activity Log.9 By not properly completing PS Forms 8130, Postal Service managers
have no means of ensuring vending machines are inoperable or in need of repair
potentially resulting in a loss of revenue.

The VESS is a nationwide computerized reporting system for the Self-Service Vending
Program, which is used as a management tool for real-time tracking of vending cost
in relation to sales. Data maintained in the VESS database is generated from
PS Form 8130, Vending Equipment Sales and Service Daily Activity Log. Each
employee associated with self-service vending equipment must complete a
PS Form 8130 detailing the equipment serviced and maintained during each month.

Recommendation

We recommend the Manager, Cincinnati District, direct the Retail Manager to:

3. Require employees to accurately complete a PS Form 8130, Vending Equipment
   Sales and Service Daily Activity Log, for the one machine, detailing the inoperable
   and current location status for each machine, and consider retraining employees to
   accurately complete the forms.

Management’s Comments

Cincinnati District management agreed that an employee inaccurately completed the
out of service section of the PS Form 8130, Vending Equipment Sales and Service
Daily Activity Log. The District Retail Manager will direct all employees to accurately
complete to PS Form 8130s. A new standard operating procedure will be issued by
October 1, 2004, with detailed instructions on proper form completion.

Evaluation of Management’s Comments

Management comments are responsive to our recommendation. Management’s actions
taken or planned should correct the issues identified in the finding.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG request written confirmation when
corrective action(s) are completed. These recommendations should not be closed in
the follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.




9
    We plan to conduct an audit on the accuracy of data in VESS.




                                                         7
Self-Service Vending Program –                                              DR-AR-05-004
 Cincinnati District


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions, or need additional information, please contact Debra D. Pettitt, Director,
Delivery and Retail, or me at (703) 248-2300.


/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachment

cc: John A. Rapp
    John P. Bowling
    Joy D. Upton
    Steven R. Phelps




                                          8
Self-Service Vending Program –                           DR-AR-05-004
 Cincinnati District


                       APPENDIX. MANAGEMENT’S COMMENTS




                                   9
Self-Service Vending Program –        DR-AR-05-004
 Cincinnati District




                                 10
